<html>
<title> - METHAMPHETAMINE ADDICTION: USING SCIENCE TO EXPLORE SOLUTIONS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                      METHAMPHETAMINE ADDICTION: 
                   USING SCIENCE TO EXPLORE SOLUTIONS 

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 18, 2013

                               __________

                           Serial No. 113-48

                               __________

 Printed for the use of the Committee on Science, Space, and Technology

       Available via the World Wide Web: http://science.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

85-274 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                                 ------                                

                Subcommittee on Research and Technology

                   HON. LARRY BUCSHON, Indiana, Chair
STEVEN M. PALAZZO, Mississippi       DANIEL LIPINSKI, Illinois
MO BROOKS, Alabama                   FEDERICA WILSON, Florida
RANDY HULTGREN, Illinois             ZOE LOFGREN, California
STEVE STOCKMAN, Texas                SCOTT PETERS, California
CYNTHIA LUMMIS, Wyoming              AMI BERA, California
DAVID SCHWEIKERT, Arizona            DEREK KILMER, Washington
THOMAS MASSIE, Kentucky              ELIZABETH ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            ROBIN KELLY, Illinois
LAMAR S. SMITH, Texas                EDDIE BERNICE JOHNSON, Texas



                            C O N T E N T S

                           September 18, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Larry Bucshon, Chairman, Subcommittee 
  on Research and Technology, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     6
    Written Statement............................................     7

Statement by Representative Daniel Lipinski, Ranking Minority 
  Member, Subcommittee on Research and Technology, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     8
    Written Statement............................................     9

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    10
    Written Statement............................................    11

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    12
    Written Statement............................................    12

                               Witnesses:

Ms. Niki Crawford, First Sergeant, Meth Suppression Section 
  Commander, Indiana State Police
    Oral Statement...............................................    13
    Written Statement............................................    16

Dr. Edythe London, The Thomas and Katherine Pike Professor of 
  Addiction Studies, Director of the UCLA Laboratory of Molecular 
  Neuroimaging at the David Geffen School of Medicine, University 
  of California at Los Angeles
    Oral Statement...............................................    26
    Written Statement............................................    28

Dr. Jane Maxwell, Senior Research Scientist, School of Social 
  Work, University of Texas at Austin
    Oral Statement...............................................    49
    Written Statement............................................    51

Dr. Celeste Napier, Director, Center for Compulsive Behavior and 
  Addiction, Professor of Pharmacology and Psychiatry, Rush 
  University Medical Center, Chicago,
    Oral Statement...............................................    65
    Written Statement............................................    67

Discussion.......................................................    72

             Appendix I: Answers to Post-Hearing Questions

Dr. Edythe London, The Thomas and Katherine Pike Professor of 
  Addiction Studies, Director of the UCLA Laboratory of Molecular 
  Neuroimaging at the David Geffen School of Medicine, University 
  of California at Los Angeles...................................    86

Dr. Jane Maxwell, Senior Research Scientist, School of Social 
  Work, University of Texas at Austin............................    91

Dr. Celeste Napier, Director, Center for Compulsive Behavior and 
  Addiction, Professor of Pharmacology and Psychiatry, Rush 
  University Medical Center, Chicago, Illinois...................    94


     METHAMPHETAMINE ADDICTION: USING SCIENCE TO EXPLORE SOLUTIONS

                              ----------                              


                      TUESDAY, SEPTEMBER 18, 2013

                  House of Representatives,
                    Subcommittee on Research and Technology
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:09 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Larry 
Bucshon [Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Bucshon. The Subcommittee on Research and 
Technology will come to order. Good afternoon. Good morning. 
Welcome to today's hearing titled ``Methamphetamine Addiction: 
Using Science to Explore Solutions.'' In front of you are 
packets containing the written testimony, biographies, and 
truth-in-testimony disclosures for today's witnesses. I 
recognize myself for five minutes now for an opening statement.
    I would like to welcome everyone to today's Research and 
Technology Subcommittee hearing titled, ``Methamphetamine 
Addiction: Using Science to Explore Solutions.''
    The problem of methamphetamine, or meth, abuse is a serious 
problem facing our country today. The main compound from which 
meth derives is pseudoephedrine, known as PSE, which is also a 
common drug used to treat nasal and sinus congestion. 
Unfortunately, criminal dealers have discovered new, easier 
ways to make more potent forms of meth that require the use of 
chemicals such as PSE.
    As our witnesses will testify today, meth poses significant 
public safety and health risks, in addition to financial 
burdens to local communities where these toxic and dangerous 
labs are found.
    According to a 2013 Government Accountability Office report 
titled ``State Approaches Taken to Control Access to Key 
Methamphetamine Ingredient Show Varied Impact on Domestic Drug 
Labs,'' the number of meth lab incidents declined significantly 
after 2004, when state and Federal regulations on PSE product 
sales were implemented. Since 2007, however, these numbers have 
significantly increased, reflecting the emergence of smaller-
scale production facilities by a new method called smurfing, 
where individuals purchase the legal limits of PSE at multiple 
stores that are then combined for meth drug production. They 
also buy it from multiple other people, including in some 
reports college students are--who are getting extra money by 
selling these products at a higher cost than they can buy them 
for.
    But more than figures and statistics, meth addiction is a 
problem that personally hits home for many Americans. As a 
medical doctor, I personally know the devastation that 
addiction can cause and even after meth addicts kick the habit, 
some research shows these addicts experience permanent damage, 
similar to what LSD may have caused back in the '60s and '70s.
    From January to July of this year, over 65 meth labs have 
been dismantled in the biggest county in my district, 
Vanderburgh County, making it the number one county for meth 
labs in the state of Indiana. This is extremely close to my 
home next door in Warrick County where we have had two meth lab 
explosions within a two-mile radius of my house. In November 
2011, a meth lab exploded down the street from my house in a 
middle-class neighborhood burning down that house and causing 
over $25,000 in damage to surrounding middle-class homes. This 
is not a problem that is only isolated to certain areas of our 
communities.
    Despite the grim realities of meth addiction, science can 
provide valuable insights to this problem. Basic science 
agencies like the National Institutes of Health have spent over 
$68 million in Fiscal Year 2013 to understand the neurological 
basis of meth addiction. The National Science Foundation also 
supports fundamental nonmedical basic science research, in 
particular behavioral research, behind the psychology of 
addiction.
    Our witnesses today reflect the wide spectrum of work and 
research regarding the various facets of the meth problem. 
Witnesses will introduce the extent of the meth problem and 
will discuss a wide range of topics on how science can help us 
understand the prevention and treatment of meth, as well as how 
technology can be used to stop unauthorized purchases of PSE.
    I would like to thank all of our witnesses for being here 
today and taking the time to offer their perspectives on this 
critical topic for our communities. I would also thank Ranking 
Member Lipinski and everyone else for participating in today's 
hearing.
    [The prepared statement of Mr. Bucshon follows:]

Prepared Statement of Subcommittee on Research and Technology Chairman 
                             Larry Bucshon

    I would like to welcome everyone to today's Research and Technology 
Subcommittee hearing titled ``Methamphetamine Addiction: Using Science 
to Explore Solutions.''
    The problem of methamphetamine, or meth, abuse is a serious problem 
facing our country today. The main compound from which meth derives is 
pseudoephedrine, known as PSE, which is also a common drug used to 
treat nasal and sinus congestion. Unfortunately, criminal dealers have 
discovered new, easier ways to make more potent forms of meth that 
require the use of chemicals such as PSE. As our witnesses will testify 
today, meth poses significant public safety and health risks, in 
addition to financial burdens to local communities where these toxic 
and dangerous labs are found.
    According to a 2013 Government Accountability Office report titled 
``State Approaches Taken to Control Access to Key Methamphetamine 
Ingredient Show Varied Impact on Domestic Drug Labs,'' the number of 
meth lab incidents declined significantly after 2004 when state and 
federal regulations on PSE product sales were implemented. Since 2007, 
however, these numbers have significantly increased, reflecting the 
emergence of smaller-scale production facilitated by a new method 
called smurfing, where individuals purchase the legal limits of PSE at 
multiple stores that are then combined for meth drug production.
    But more than figures and statistics, meth addiction is a problem 
that personally hits home for many Americans. As a medical doctor and 
physician, I personally know the devastation that addiction can cause 
and even after meth addicts kick their habit, research shows these 
addicts experience permanent damage. From January to July of this year, 
over 65 meth labs have been dismantled in the biggest county in my 
district, Vanderburgh County, making it the number one county for meth 
labs in the state. This is extremely close to my home next door in 
Warrick County and where we have had two meth lab explosions within a 
2-mile radius of my house. In November of 2011, a meth lab exploded 
down the street from my house burning a house to the ground and causing 
over $25,000 in damage to houses around it.
    Despite the grim realities of meth addiction, science can provide 
valuable insights to this problem. Basic science agencies like the 
National Institutes of Health have spent over $68 million in FY 2013 to 
understand the neurological basis of meth addiction. NSF also supports 
fundamental non-medical basic science research, in particular 
behavioral research behind the psychology of addiction.
    Our witnesses today reflect the wide spectrum of work and research 
regarding the various facets of the meth problem. Witnesses will 
introduce the extent of the meth problem, and will discuss a wide range 
of topics on how science can help us understand the prevention and 
treatment of meth as well as how technology can be used to stop 
unauthorized purchases of PSE.
    I would like to thank the witnesses for being here today and taking 
time to offer their perspectives on this critical topic for our 
communities. I'd also like to thank Ranking Member Lipinski and 
everyone else participating in today's hearing.

    Chairman Bucshon. At this point I will now recognize the 
Ranking Member of the Subcommittee, the gentleman from 
Illinois, Mr. Lipinski, for his opening statement.
    Mr. Lipinski. Thank you. I want to thank you, Mr. Chairman, 
for holding this hearing and thank our witnesses for being here 
this morning.
    As a Representative from the state of Illinois, I am very 
interested in this topic because my state experienced some of 
the same meth abuse problems as Chairman Bucshon's district and 
state. Geographically, Illinois sits right in the center of the 
top five states in the country for number of clandestine meth 
lab incidents reported in 2012. With 801, it had the 5th-
highest number of lab incidents.
    My colleagues in districts affected by heavy meth abuse, as 
well as my colleagues in districts affected by other illegal 
drugs, understand the heavy burden placed not only on families 
but also the local economy, hospitals, law enforcement, and the 
court system. Unfortunately, if the sequester continues, 
Illinois will lose about $3.5 million in grants to help prevent 
and treat substance abuse resulting in around 3,900 fewer 
admissions to substance abuse programs.
    Congress and individual states have developed laws aimed at 
making the precursor chemicals for methamphetamine harder to 
purchase, as the Chairman stated, but there is still more work 
to be done. In order to do our jobs and craft effective 
policies to combat meth addiction, we need to know more about 
the science behind addiction and effective prevention and 
treatment programs.
    Much of the research you will hear about this morning is 
funded by the National Institute on Drug Abuse at the National 
Institutes of Health, which unfortunately is not in our 
Committee's jurisdiction. But, I hope today we also have the 
opportunity to explore the types of foundational social and 
behavioral research, as well as the neuroscience research, that 
underlies much of the more application-driven research that is 
the purview of several of our witnesses today. As Dr. Gene 
Robinson testified at the BRAIN Initiative hearing in July, it 
is necessary to understand how healthy brains work from both a 
functional and behavioral perspective in order to cure the main 
devastating brain disorders that afflict our society. This is 
the type of science championed by NSF. Because of the important 
work already supported by both NSF and NIDA, our society is 
starting to accept addiction as a disease of the brain 
influenced by environmental factors.
    Many people addicted to drugs trace their problem back to 
their school years and acting out teenage curiosity. Thus, to 
meaningfully change this trend, our conversation must also 
include teen behavior and drug use and how we might use the 
education system and public education campaigns as vehicles for 
prevention. Unless we apply what we know about a teenager's 
brain and behavior to design such education efforts, and change 
course as we learn more, we may be setting ourselves up to 
fail.
    I look forward to Dr. Napier's testimony on her work 
studying the adolescent brain and supporting school-based 
curricula to help kids build good decision-making skills. These 
are the very skills they need to keep themselves out of the 
penal system where they are often introduced to a network of 
drug dealers within their communities, making the likelihood of 
relapse after release from jail very high.
    Social networks and markets for meth are also important 
topics for research that can inform the development of more 
effective prevention policies. For example, we know that meth 
abuse often circulates within families among close 
acquaintances. Additionally, as I understand it, whereas meth 
labs used to be typically in a room or basement of a home, a 2-
liter shake-and-bake bottle can now be quickly improvised in 
the backseat of a car or behind a dumpster in the schoolyard.
    We also know that meth is more successful in penetrating 
some markets than others. Identifying and understanding the 
factors behind the meth market and how meth abuse spreads in 
social networks is a challenge that requires collaboration 
among social scientists and law enforcement officials.
    Finally, evidence-based policymaking is essential for 
effective treatment. If meth addicts are only fixated on their 
next high as the research has shown, then the standard 12-step 
program will not be an effective treatment tool for them. 
Treatment programs for meth addiction have evolved based on our 
increased understanding of what works and what doesn't, but 
more progress is still needed. As a social scientist myself, I 
find all of these to be interesting, compelling research 
challenges.
    Before I close, I would like to mention that a bipartisan 
law was passed through our Committee in 2007 that addressed 
meth, specifically with a focus on a lack of national standards 
for remediation of meth labs. For every pound of meth produced, 
five to six pounds of toxic byproducts remain in walls and 
carpets, as well as ventilation and wastewater systems. Perhaps 
it is worth this Subcommittee, through its jurisdiction over 
NIST, reviewing where we now stand with respect to remediation 
standards. I think this is an area in which we can work again 
on a bipartisan basis for the health of our first responders 
who investigate meth labs and citizens in those communities.
    Again, I look forward to hearing testimony from the 
witnesses and hope the testimony can get us thinking about how 
research can help us better tackle the increasing meth 
addiction problem plaguing our communities.
    I yield back the balance of my time.
    [The prepared statement of Mr. Lipinski follows:]

     Prepared Statement of Subcommittee on Research and Technology
                Ranking Minority Member Daniel Lipinski

    Mr. Chairman, thank you for holding this hearing and thank you to 
our witnesses for being here this morning.
    As a Representative from the state of Illinois, I am very 
interested in this topic because my state is experiencing some of the 
same meth abuse problems as Chairman Bucshon's district and state. 
Geographically, Illinois sits right in the center of the top five 
states in the country for number of clandestine meth lab incidents 
reported in 2012. With 801, it had the fifth highest number of lab 
incidents. My colleagues in districts affected by heavy meth abuse, as 
well as my colleagues in districts affected by other illegal drugs, 
understand the heavy burden placed not only on families, but also the 
local economy, hospitals, law enforcement, and the court system. 
Unfortunately, if the sequester continues Illinois will lose about $3.5 
million in grants to help prevent and treat substance abuse, resulting 
in around 3,900 fewer admissions to substance abuse programs.
    Congress and individual states have developed laws aimed at making 
the precursor chemicals for methamphetamine harder to purchase, but 
there is still work to be done. In order to do our jobs and craft 
effective policy to combat meth addiction, we need to know more about 
the science behind addiction and effective prevention and treatment 
programs.
    Much of the research we will hear about this morning is funded by 
the National Institute on Drug Abuse at the National Institutes of 
Health, which unfortunately is not in this Committee's jurisdiction. 
But I hope today we also have an opportunity to explore the types of 
foundational social and behavioral research, as well as the 
neuroscience research, that underlies much of the more application-
driven research that is the purview of several of our witnesses today. 
As Dr. Gene Robinson testified at the Brain Initiative Hearing in July, 
it is necessary to understand how healthy brains work, from both a 
functional and behavioral perspective, in order to cure the many 
devastating brain disorders that afflict our society. This is the type 
of science championed by NSF. Because of the important work already 
supported by both NSF and NIDA, our society is starting to accept 
addiction as a disease of the brain influenced by environmental 
factors.
    Many people addicted to drugs trace their problem back to their 
school years and acting out teenage curiosity. Thus to meaningfully 
change this trend, our conversation must also include teen behavior and 
drug use, and how we might use the education system and public 
education campaigns as vehicles for prevention. Unless we apply what we 
know about the teenager's brain and behavior to the design of such 
education efforts, and change course as we learn more, we may be 
setting ourselves up to fail.
    I look forward to Dr. Napier's testimony on her work studying the 
adolescent brain and supporting school-based curricula to help kids 
build good decision-making skills. These are the very skills they need 
to keep themselves out of the penal system where they are often 
introduced to a network of drug dealers within their communities making 
the likelihood of a relapse after release from jail very high.
    Social networks and markets for meth are also important topics for 
research that can inform the development of more effective prevention 
policies. For example, we know that meth abuse often circulates within 
families and among close acquaintances. Additionally, as I understand 
it, whereas meth labs used to be typically in a room or basement of a 
home, a 2-liter ``shake and bake'' bottle can now be quickly improvised 
in the back seat of a car or behind the dumpster in a school yard. We 
also know that meth is more successful in penetrating some markets than 
others. Identifying and understanding the factors behind the meth 
market and how meth abuse spreads in social networks is a challenge 
that requires collaboration among social scientists and law enforcement 
officials.
    Finally, evidence-based policy making is essential for effective 
treatment. If meth addicts are only fixated on their next high, as 
research has shown, then the standard 12-step program will not be an 
effective treatment tool for them. Treatment programs for meth 
addiction have evolved based on our increased understanding of what 
works and what doesn't, but more progress is still needed.
    As a social scientist myself, I find all of these to be interesting 
and compelling research challenges. Before I close, I'd also like to 
mention that a bipartisan law was passed through our Committee in 2007 
that addressed methamphetamine, specifically with a focus on the lack 
of national standards for remediation of meth labs. For every pound of 
meth produced, five to six pounds of toxic by-products remain in walls 
and carpets, as well as ventilation and waste water systems. Perhaps 
it's worth this Subcommittee, through its jurisdiction over NIST, 
reviewing where we stand now with respect to remediation standards. I 
think this is an area in which we can work again on a bipartisan basis 
for the health of our first responders who investigate meth labs and 
citizens in those communities.
    Again, I look forward to hearing from the witnesses and hope that 
the testimony can get us thinking about how research can help us better 
tackle the increasing meth addiction problem plaguing our communities.
    Thank you Mr. Chairman. I yield back the balance of my time.

    Chairman Bucshon. Thank you, Mr. Lipinski.
    I now recognize the Chairman of the full Committee, Mr. 
Smith, for his opening statement.
    Chairman Smith. Thank you, Mr. Chairman.
    Six weeks ago, this Subcommittee held a hearing on the 
frontiers of human brain research. During that hearing, our 
witnesses discussed many different neurological disorders, 
including Alzheimer's disease, autism, epilepsy, Parkinson's 
disease, and traumatic brain injury. However, witnesses did not 
have the opportunity to discuss another important disorder, 
namely addiction, which affects millions of Americans and their 
families.
    Our witnesses this morning will testify about how meth 
addiction leads to severe medical and social consequences, and 
why this drug is particularly destructive to the addict. The 
meth problem is an example of a clear societal need where 
science can yield potential solutions that will benefit the 
American public. Progress on this problem, like many other 
complex medical issues, will require an interdisciplinary 
approach that will inform the scientific basis of meth 
addiction and treatment.
    The National Science Foundation will play an integral role 
in achieving a more complete understanding of this problem. 
Hypothesis-based data-driven social science research can be 
used to understand the behavioral science behind addiction.
    Scientists should work with health officials to develop 
predictive models and algorithms that could aid law 
enforcement. Applied mathematicians should work with 
neuroscientists to develop the mathematical tools necessary to 
build a quantitative model that could help explain the 
neurological factors behind addiction. These are just a few 
examples where NSF money can be effectively spent to help solve 
an important societal problem.
    I look forward to the witnesses' testimony and the 
questions, and I would especially like to thank a constituent 
of mine, Dr. Jane Maxwell from the University of Texas, for 
being here this morning and for her participation.
    Mr. Chairman, finally, I explained to the witnesses a few 
minutes ago that, unfortunately, I have another Committee that 
is holding a classified briefing that I have to attend, that 
began 20 minutes ago so I am going to have to excuse myself. I 
do want to reassure the witnesses that I have seen their 
testimony and we appreciate, again, their contributions.
    Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Mr. Smith follows:]

             Prepared Statement of Full Committee Chairman
                             Lamar S. Smith

    Thank you Chairman Bucshon for holding today's hearing.
    On July 31st, this Subcommittee held a hearing on the frontiers of 
human brain research. During that hearing, our witnesses discussed many 
different neurological disorders, including Alzheimer's disease, 
autism, epilepsy, Parkinson's disease and traumatic brain injury.
    However, witnesses did not have the opportunity to discuss another 
important disorder, namely addiction, which affects millions of 
Americans and their families.
    Our witnesses this morning will testify about how methamphetamine 
addiction leads to severe medical and social consequences, and why this 
drug is particularly destructive to the addict.
    The meth problem is an example of a clear societal need where 
science can yield potential solutions that will benefit the American 
public. Progress on this problem, like many other complex medical 
issues, will require an interdisciplinary approach that will inform the 
scientific basis of meth addiction and treatment.
    The National Science Foundation (NSF) will play an integral role 
towards a more complete understanding of this problem. Hypothesis-based 
data-driven social science research can be used to understand 
behavioral science behind addiction.
    Scientists should work with health officials to develop predictive 
models and algorithms that could aid law enforcement. Applied 
mathematicians should work with neuroscientists to develop the 
mathematical tools necessary to build a quantitative model that could 
help explain the neurological factors behind addiction. These are just 
a couple of examples where NSF money can be effectively spent towards 
an important societal problem.
    I look forward to the witnesses' testimony and questions and I 
would especially like to thank a constituent of mine, Dr. Jane Maxwell 
from the University of Texas, School of Social Work, for her 
participation this morning. And I yield back.

    Chairman Bucshon. Thank you, Chairman Smith.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    [The prepared statement of Ms. Johnson follows:]

          Prepared Statement of Full Committee Ranking Member
                         Eddie Bernice Johnson

    Good morning, I would like to thank Chairman Bucshon for holding 
today's hearing to explore solutions to meth addiction using scientific 
research.
    Methamphetamine and other drug addictions wreak havoc on so many of 
our communities. The Office of National Drug Control Policy reports 
that North Texas is a national distribution center for the crystal form 
of methamphetamine and other illicit drugs because of its 
transportation and financial infrastructures and its proximity to 
Mexico. But meth addiction knows no bounds. Meth use crosses most 
demographics including gender, age, and race, and may include parents, 
teens, the unemployed, the homeless, and veterans. With 15 years of 
experience as a Chief Psychiatric Nurse at the Dallas VA, I recognize 
the challenges faced by soldiers returning home and the unfortunate 
battle many of them face with addiction and substance abuse.
    Research shows that the brain is substantially changed after heavy 
meth abuse. Our witnesses today will be testifying about the chemical 
changes that take place in the brain and that describe the chronic, 
relapsing disease that is addiction. They will also discuss some of the 
behavioral changes associated with addiction and the long-term injury 
to the brain. Meth abuse leads to depression, aggressive behavior, 
paranoia and hallucinations. Contributing to meth's formidable effects 
is the exponentially more potent methamphetamine coming out of Mexico.
    These degenerative changes to the brain, and associated behavioral 
changes, have some similarities to findings in people with 
schizophrenia, bipolar disorder and Parkinson's disease. These 
similarities reinforce the need to bring many different kinds of 
experts together to solve this problem. We must encourage and support 
interdisciplinary work between neurobiologists who study the science of 
the brain and behavioral scientists who study the actions and reactions 
of humans. But we cannot make a dent in finding solutions to the meth 
problem unless these groups of researchers share the findings from 
their research with clinicians, prevention and treatment specialists, 
and law enforcement. And for the sake of the children, we must make 
more than a dent. As I said in July at this Subcommittee's hearing on 
the BRAIN Initiative, I am so proud of this kind of interdisciplinary 
and translational research being done on brain disorders, including 
addiction, at the University of Texas at Dallas' Center for Brain 
Health.
    We must find better ways to treat addicts, but prevention is our 
best hope. In September 2011, the Greater Dallas Council on Alcohol & 
Drug Abuse received a $125,000 grant from the White House Office of 
National Drug Control Policy's Drug Free Communities Support Program. 
The Drug Free Communities program has already proven to be an effective 
tool in reducing substance abuse and providing children with the 
necessary tools to make more informed decisions about their future. I 
look forward to hearing about the latest prevention programs targeted 
to school-aged kids and based on scientific studies of adolescent 
behavior. A recent study reports that in 2012, 1.6 percent of seventh 
graders and 3.4 percent of twelfth graders in Texas had used meth. The 
fact we even have drug statistics for 12-year olds is truly 
disheartening. We must stop this steady and sad trajectory. We need 
more educational programs in place supported by the type of research 
done by our witnesses today.
    We must all continue to work tirelessly to ensure that we create 
effective public policies addressing drug prevention and effective 
treatment programs.
    Thank you Mr. Chairman. I yield back.

    Chairman Buschon. At this time I will introduce our 
witnesses. The first witness today is First Sergeant Niki 
Crawford from the Indiana State Police. She is also the 
Commander of the Methamphetamines Suppression Section. Sergeant 
Crawford received her bachelor's degree from Indiana University 
in secondary education, and since 1993, she has been with the 
Indiana State Police and has served in various capacities in a 
variety of locations around the state. Her responsibilities 
with the Methamphetamine Suppression Section include overseeing 
all operations of the 125-member Indiana State Police 
clandestine lab team and supervising 18 full-time personnel 
assigned to the Methamphetamines Suppression Section.
    Our second witness is Professor Edythe London from UCLA. 
Professor London is an internationally recognized expert in the 
study of drug addiction. At UCLA she is the Thomas P. and 
Katherine K. Pike Chair of Addiction Studies and is a Professor 
in the Departments of Psychiatry and Biobehavioral Sciences in 
addition to the Department of Molecular and Medical 
Pharmacology. She received her doctoral degree in pharmacology 
and toxicology from the University of Maryland. Before joining 
UCLA faculty in 2001 she worked at the National Institutes of 
Health for two decades conducting independent research at the 
National Institute on Drug Abuse. In 2008 she received the 
Marian Fischman award from the college on problems of drug 
dependence.
    Our third witness today is Professor Jane Maxwell, who is a 
Senior Research Scientist in the Social Work School at the 
University of Texas Austin. Her research specialties include 
trends and patterns of substance abuse both nationally and 
internationally. She is a principal investigator on a grant 
from the National Institutes of Drug Abuse to study patterns of 
methamphetamine use in the Central Texas area. She has been a 
Fulbright Senior Specialist and a member of the National 
Institute on Drug Abuse's Epidemiology Work Group for 25 years.
    Our fourth and final witness is Professor T. Celeste 
Napier, who is the Director of the Center for Compulsive 
Behavior and Addiction and a Professor in the Departments of 
Pharmacology and Psychiatry at Rush University Medical Center 
in Chicago. Dr. Napier has over 30 years of research related to 
brain and behavioral effects of abused substances and impulse 
control disorders that have been supported by grants from the 
National Institutes of Health and other private research 
foundations. She is the author of over 200 scientific 
publications, special issues, and books.
    Thanks again to our witnesses for being here this 
afternoon. As our witnesses should know, spoken testimony is 
limited to five minutes, after which the Members of the 
Committee will each have five minutes to ask questions.
    I now recognize First Sergeant Crawford for five minutes to 
present her testimony. Welcome.

                TESTIMONY OF Sgt. NIKI CRAWFORD,

                        FIRST SERGEANT,

              METH SUPPRESSION SECTION COMMANDER,

                      INDIANA STATE POLICE

    Sgt. Crawford. Chairman Bucshon, Ranking Member Lipinski, 
and distinguished Subcommittee Members, thank you for allowing 
the Indiana State Police to be here to present to you on our 
meth lab epidemic.
    As you can see in Table 1 and Appendix A of the written 
testimony submitted, Indiana has seen the problem of local 
manufacture of meth rise over the past two decades, and the 
problem exists in every corner of our state.
    We have seen a variety of cook processes over the years, 
but the most significant change came around 2006 when we began 
to see the one-pot or the shake-and-bake labs where the entire 
meth cook is completed in a plastic bottle, glass jar, or other 
homemade reaction vessel. Because the one-pot labs are used 
with noncompatible chemicals, more injuries to both meth cooks 
as well as law enforcement officers are occurring. The 
corresponding data can be found in Table 2. One-pot labs are a 
much quicker, easier, and smaller way to manufacture meth.
    Everyone asks the question why are meth labs so pervasive? 
What is the difference between meth and other drugs? From a 
law-enforcement perspective the difference that we see is that 
the vast majority of the meth labs in Indiana are not money-
driven operations. They are addiction-based labs fueled by the 
need for a drug whose chemical precursor pseudoephedrine and 
the other chemical reagents used are readily available in local 
stores. Drug addicts are in a position where they can 
completely control their own destiny in terms of easy access to 
the chemicals and the ability to manufacture the drug--their 
drug of choice.
    On January 16 of 2006 the Indiana State Police launched the 
Methamphetamine Suppression Section, which consisted of 
personnel assigned full-time to investigate meth crimes. The 
State Police personnel historically and currently respond to 97 
percent of all labs seized in the state. At about the same time 
we launched the Meth Watch program, it focused on deterring 
meth cooks by educating retailers and citizens and putting 
smurfs on notice that we were watching purchases of certain 
chemicals. Smurfs by definition are those people who purchase 
pseudoephedrine products and other reagent chemicals to be 
diverted to the meth cooks.
    Meth Watch kits consist of posters, signage, employee 
training materials, and brochures. The program was expanded to 
include stickers to warn thieves and tamper tags to track the 
thefts from anhydrous ammonia tanks. The success of the program 
was in the building of investigative relationships between law 
enforcement and retailers and citizens who sell and also use 
the products. However, the disappointment of the program was it 
did little to deter the smurfs and meth cooks. A sampling of 
the Indiana Meth Watch items have been provided to the 
Committee for your review.
    Following the launch of the Meth Watch, the state police 
also launched the Indiana Meth Investigation System, also known 
as IMIS. The front end of IMIS is an informational website and 
the link is in your packet. The backside of IMIS was a secure 
meth investigation database for law enforcement to use. 
Although the state police knew IMIS would not be a preventive 
measure, it did allow more--excuse me--more efficient 
investigations and lab reporting both on the state and Federal 
level.
    In 2011 Indiana, as well as many other states across the 
country, were mandated by law to use the National Precursor Log 
Exchange or NPLEX. NPLEX is a national electronic tracking 
system of pseudoephedrine products. NPLEX was lobbied for under 
the pretext that it would prevent the illegal purchase of 
pseudoephedrine products by blocking sales that exceeded the 
legal limits, and therefore, it would prevent meth labs. 
Unfortunately, this has not been the case. The meth cooks 
response has been to double and triple their smurf groups to 
accommodate the law changes that have been made.
    As stated earlier, the GAO did a study where they studied 
the results of tracking states versus controlled substance 
states, and in the country, Mississippi and Oregon are two 
states that returned pseudoephedrine to a prescription-only 
status.
    There are a few pseudoephedrine products that are being 
marketed as meth-resistant. The technology focuses on the 
prevention of the extraction of pseudoephedrine from the tablet 
and impeding the conversion of pseudoephedrine to meth directly 
from the tablet. It is exciting to see companies working on 
this technology and in that direction, but of all the samples 
provided to DEA, their chemists have been able unfortunately to 
defeat the technology to some extent.
    Ladies and gentlemen of the Committee, the word for the day 
is smurf. Most meth cooks and smurfs are also involved in other 
property crimes such as burglary and theft. However, the newest 
and most pervasive crime growth has been smurfing itself. With 
the establishment of the NPLEX system and mandated block sales, 
the black market for pseudoephedrine products has significantly 
expanded. Meth cooks are soliciting the services of family, 
friends, coworkers, college students, homeless people, and most 
commonly, other meth addicts to purchase their pseudoephedrine 
projects.
    Bottom line, PSE products have become currency to meth 
cooks. The meth cooks pay between $20 and $100 for every box of 
pseudoephedrine or they trade a box for a half a gram of meth, 
which has a street value of $50.
    There is rampant child neglect, endangerment, physical, and 
sexual abuse among the children being raised in these meth lab 
homes. Table 6 illustrates the growing number of children that 
are being identified in homes and locations where we have 
seized meth labs. As the parents' addiction grows, the lack of 
supervision of their children also grows.
    The meth lab crisis is not an easy problem to solve but 
this particular drug problem causes much deeper damage to 
people and communities than other drug crimes. Those of us in 
law enforcement who have chosen this route in our career know 
that we will deal with drug-endangered and abused children, 
theft, burglary, and violence. Communities are dealing with 
contaminated homes that lead to innocent illness of parties, 
abandoned properties reducing property values, and fewer 
employable citizens to contribute to the economy.
    As federal, state, and local leaders determine if 
additional steps are necessary to combat this problem, rest 
assured that we in law enforcement will remain on the front 
lines enforcing the applicable laws and fighting for the safety 
of our children and communities.
    [The prepared statement of Sgt. Crawford follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bucshon. Thank you very much.
    I now recognize Dr. London for her testimony.

                TESTIMONY OF DR. EDYTHE LONDON,

            THE THOMAS AND KATHERINE PIKE PROFESSOR

                     OF ADDICTION STUDIES,

               DIRECTOR OF THE UCLA LABORATORY OF

                 MOLECULAR NEUROIMAGING AT THE

                DAVID GEFFEN SCHOOL OF MEDICINE,

            UNIVERSITY OF CALIFORNIA AT LOS ANGELES

    Dr. London. Chairman Bucshon, Ranking Member Lipinski, and 
Members of the Subcommittee, thank you for the opportunity to 
testify on the problem of methamphetamine addiction. My name is 
Edythe London, and I direct the Laboratory of Molecular 
Neuroimaging of the David Geffen School of Medicine at UCLA.
    I would like to note at the outset that strong support from 
Congress to the National Institutes of Health and its grantees 
over the past two decades has enabled research that is driving 
the development of new treatments for this problem, which needs 
your continued support.
    Among illicit substances, methamphetamine and amphetamines 
in general are second only to marijuana in prevalence of use 
worldwide. Methamphetamine abuse is associated with crime, 
premature mortality, lost productivity, and a host of medical 
problems. Illegal methamphetamine use in our country is now 
reduced from the levels in 2006, but the problem is still very 
severe where there are established cores of users and supply 
connections set up with the Mexican cartels.
    In California, for example, admissions to treatment for 
methamphetamine use disorders in recent years exceeded those 
for all other substances, including alcohol. Like cocaine, 
methamphetamine augments the action of dopamine, but it is a 
more effective stimulant, has a longer duration of action, and 
is more potent, addictive, and toxic than cocaine. It also is 
relatively easy to manufacture and has, as you just heard, a 
low street cost.
    Methamphetamine users stay under the influence for extended 
periods with sleep deprivation and poor health maintenance, 
leading to medical and psychiatric problems such as prolonged 
psychosis and suicide attempts. Methamphetamine use also is 
highly associated with HIV infection and in men who have sex 
with men.
    Brain imaging techniques such as magnetic resonance imaging 
and positron emission tomography, MRI and PET, have helped 
clarify the effects of methamphetamine use on brain structure, 
chemistry, and function.
    [Slide]
    This slide shows the difference-maps of the lateral surface 
of the brain obtained with high-resolution MRI in a group of 
methamphetamine users and healthy controls. Red indicates a 
gray matter deficit in the methamphetamine group, especially in 
the prefrontal cortex on the right lateral surface in a region 
important for inhibitory control. Deficits are also seen in 
medial aspects of the brain, and volume loss in the hippocampus 
is related to memory deficits. Unexpectedly, white matter shows 
hypertrophy. The findings suggest a pattern of deterioration 
that promotes cognitive impairment. The white matter 
hypertrophy may reflect reactive gliosis secondary to neuronal 
damage. These abnormalities accompany deficits in the brain's 
dopamine system, which functions in reward processing, 
motivation, self-control, and decision-making.
    PET scans have revealed low levels of dopamine receptors 
and dopamine transporters and hypofunction of dopamine neurons. 
Notably, markers for dopamine system integrity predict the 
outcome of behavioral treatments for methamphetamine use 
disorders.
    Functional MRI, which measures brain activity during 
cognitive processing, has shown that methamphetamine users 
recruit less neural activity in the prefrontal cortex than 
healthy controls while learning, paying attention, and being 
engaged in emotion processing. Functional MRI also can help 
evaluate the effects of potential treatments.
    These fMRI brain activation maps show the response to 
modafinil in cortical regions while methamphetamine users are 
performing a task that requires inhibitory control. The 
activation corresponds to improvements in learning, and 
modafinil is an agent that improves dopaminergic activity and 
has cognitive benefits.
    At this time, behavioral treatments are the most effective 
ones for methamphetamine dependence, but they don't help 
everyone. Efforts to identify a broadly effective medication 
for methamphetamine dependence have not been successful, but 
there are some promising leads such as bupropion, which reduces 
use in a subgroup of patients. Studies from animal models and 
PET scans of humans have also identified other potential 
medications, buspirone and microglial activation inhibitors, 
such as ibudilast.
    This work has required collaboration of physicists, 
mathematicians who developed and improved the instrumentation 
and algorithms for data acquisition and analysis, as well as 
psychologists and clinicians. The field would be advanced with 
the development of new and more sensitive probes, but we need 
multidisciplinary teams. Such collaboration, for example, has 
proven that deep brain stimulation can be an effective 
treatment for depression. This advance required the confluence 
of several fields, including bioengineering, electrical 
engineering, materials science, neurosurgery, MRI physics, 
psychology, and neuroscience. Optimizing therapeutics for 
methamphetamine addiction requires this type of 
multidisciplinary effort.
    [The prepared statement of Dr. London follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 Slides

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Bucshon. Thank you very much.
    Dr. Maxwell.

                 TESTIMONY OF DR. JANE MAXWELL,

                   SENIOR RESEARCH SCIENTIST,

                     SCHOOL OF SOCIAL WORK,

                 UNIVERSITY OF TEXAS AT AUSTIN

    Dr. Maxwell. Thank you. My thanks to you and to the Vice 
Chair for inviting me and I hope maybe I can shed some light on 
looking at this problem from an epidemiological standpoint or 
historically.
    We know that until 1970 we really didn't have a 
methamphetamine problem because amphetamine was available over 
the counter. Amphetamine was scheduled in 1970 and that is when 
we first began to see problems with methamphetamine. They were 
using the P2P or the phenyl propanone, a precursor that we are 
now seeing used in Mexico. And for the first ten years it was 
the bikers, and remember the ``crankcase'' meth where they were 
carrying it in crankcases producing the meth.
    In 1980 phenyl propanone was forbidden in the United States 
and that is when they started using pseudoephedrine.
    [Exhibit 1]
    And this slide is very busy but there is an easy message in 
it. If you look at the red lines, vertical lines, that is every 
time either the United States or Canada had passed a precursor. 
And you can see that we--the first precursor, the purity of 
methamphetamine drops, then it goes back up again; another 
precursor ban, it drops, it goes back up again. So this is a 
drug that is very cyclical. We do one thing to it and think 
maybe we are making progress and then it rebounds.
    [Exhibit 2]
    This slide shows what the market looked like right after 
the law was passed limiting the ability to buy pseudoephedrine. 
The far left is the price and purity right after the law goes 
into effect. Then you see the price going--skyrocketing and 
then dropping off. You see the purity, the blue line dropping 
and then going up. And the intersection of interest is the one 
with the second green area. This is the middle of 2008. This is 
when the Mexicans first really started distributing the P2P 
meth in the United States. And since then the prices dropped 
dramatically. And we are now up to about 94 percent purity of 
the meth that is being tested by DEA.
    [Exhibit 3]
    Two other data sets that are of use, the blue line is 
showing the proportion of all the methamphetamine that is 
tested that is now made from the P2P process. So it is about 93 
percent; about another two to three percent is made from the 
pseudoephedrine. Now, one of the things that is not shown in 
this is a DEA-only test where the seizure is more than six 
grams, so a lot of the small amounts of meth that are made in 
the shake-and-bakes would not be tested.
    Basically, the market really in terms of the massive 
quantities is now the P2P. The red is the drop-off in the last 
two years in the number of precursor clandestine labs as 
reported to DEA. I am not sure what is going on but we may be 
seeing the Mexican meth beginning to move in other areas and 
perhaps overtaking some of these small labs.
    [Exhibit 4]
    This is the Texas data and I put it up there because it is 
15 years of data, and the red line is 2006 so you can see after 
we get the precursor, whether it is the deaths or poison center 
exposures or treatment admissions or tox lab incidents, they 
all drop after 2006 in Texas. They are now going upwards again. 
So another cycle.
    And besides using the quantitative data, I always get out 
on the street and ask people who are working out on the street 
what is going on. They are telling me now they are seeing more 
psychosis now than they saw six months ago among the users. The 
meth is very, very pure. The high is very, very intense, more 
use of needles, syphilis is up. DEA is reporting more and more 
seizures in the Dallas area of 100 pounds or more, and the 
reporting availability of meth is higher than it has ever been. 
So more bad news.
    [Exhibit 5]
    This is a map of the tox lab data from DEA, and basically 
it is showing, yes, meth is a problem in the West. But there 
was something else that really bothered me and I went and 
looked at the data. This is 2010 and there are seven states in 
the Northeast that are white. They don't show--so they had--
they reported no meth in 2010. When I ran the data last night, 
we are down to only three states that didn't report meth in 
2013.
    [Exhibit 6]
    And this is a report. I am a member of NIDA's Community 
Epidemiology Work Group, the members reporting no diminution in 
meth. It is not decreasing. It is increasing or staying stable.
    You asked for information on data and methodologies and I 
put this in here for the--your assistance to use. So with that, 
I thank you.
    [Exhibit 7]
    [The prepared statement of Dr. Maxwell follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bucshon. Thank you very much.
    Dr. Napier.

           TESTIMONY OF DR. CELESTE NAPIER, DIRECTOR,

         CENTER FOR COMPULSIVE BEHAVIOR AND ADDICTION,

           PROFESSOR OF PHARMACOLOGY AND PSYCHIATRY,

                RUSH UNIVERSITY MEDICAL CENTER,

                       CHICAGO, ILLINOIS

    Dr. Napier. Chairman Bucshon, Ranking Member Lipinski, and 
distinguished Members of the Subcommittee, thank you so much 
for the opportunity to testify on how science can provide 
solutions to the problems associated with methamphetamine 
abuse.
    Methamphetamine is an insidious drug, and while the user 
initially experiences an incredible sense of euphoria, the 
brain's natural brake system is overridden, and the 
consequences of this overload can be devastating. 
Methamphetamine can cause brain abnormalities that occur even 
years after the addicted individual stops using the drug, and 
understanding these persistent abnormalities is an important 
topic for modern neuroscience.
    Pilots of my own research can underscore this point. We 
studied the effects of methamphetamine in laboratory rats. 
These rats readily learned to press a lever in order to receive 
an infusion of methamphetamine into their bloodstream, and if 
we let rats self-administer methamphetamine for two weeks and 
then leave them alone for different periods of time, we find 
that by three weeks of abstinence, the rats' brains had 
degenerated and they looked similar to the brain of a human 
that has Parkinson's disease.
    Such findings provide neurobiological explanations to 
recent reports that human methamphetamine addicts have a 75 
percent greater risk to develop Parkinson's disease than do 
controls. An increasing prevalence for Parkinson's disease has 
enormous health and medical cost ramifications, and we are now 
working to identify viable biomarkers of Parkinson's-disease-
like pathology in methamphetamine abusers with the hope that 
presymptomatic detection will allow early therapeutic 
interventions to avoid this outcome.
    As suggested by these studies, effective treatments for 
methamphetamine abuse may be those that work after the drug-
taking has stopped. Indeed, relapse by the withdrawn addict is 
as high as 70 percent and thus halting relapse is a high 
priority for medication development.
    Basic research has identified treatments that reduce 
relapse-like behavior in laboratory rats, as Dr. London had 
indicated. We are using treatment protocols that are already 
used in humans to treat other diseases. Such a repurposing 
provides a rapid--a relatively rapid and cost-effective process 
to bring treatment to market.
    To attract the interest of pharmaceutical industry to the 
patent opportunities of this endeavor, we are working with an 
innovative foundation named Cures within Reach. This foundation 
is stewarding fundraising for repurpose treatments that we 
think should reduce cocaine and methamphetamine use. We feel 
that teaching old drugs new tricks is a win-win model that 
should be explored to its greatest extent by academic 
biomedical researchers, government agencies, foundations, and 
pharmaceutical companies alike.
    An example of the urgent need to develop effective 
treatments for addiction is in our Nation's jails and prisons 
where approximately 80 percent of the incarcerated have 
substance abuse problems. As drug courts mandate treatment, we 
are working with the continuing legal education programs to 
integrate the neuroscience of addiction in order to help inform 
sentencing decisions. I think that such knowledge base is 
especially important for methamphetamine cases for which 
coerced treatment is often the only way that the addict will 
access help.
    Particularly vulnerable to the ravages of methamphetamine 
are the Nation's youth, as Mr. Lipinski mentioned. Each day in 
the United States more than 4,500 children try an illicit drug 
for the first time. As these striking data suggest, the 
traditional approach to drug education is largely ineffective. 
New strategies are critically needed and I believe there is a 
role for neuroscience in this endeavor.
    Recent initiatives by the Robert Crown Center for Health 
Education, a not-for-profit organization based in a suburb of 
Chicago, in conjunction with our addiction center at Rush 
University, is providing what I believe to be an excellent 
template for this goal. The Robert Crown Center is developing a 
completely new educational framework that integrates knowledge 
and building strategies for middle school, high school 
students, school personnel, and parents. Our center provides 
access to cutting-edge brain research. Thus, the prevention 
program includes both the neuroscience-based knowledge of how 
abused drugs act on the adolescent brain, as well as the 
socioeconomic learning required to reduce drug abuse among our 
youth.
    Understanding how the brain goes awry during 
methamphetamine abuse is a formidable challenge. The exciting 
advances that we made towards this challenge attest to the 
ingenuity and determination of the addiction neuroscientist. 
But to continue this trajectory we must carefully consider 
where to direct our resources. Successful templates should be 
supported and promising new paradigms should be considered. 
Education programs need to be promoted to translate the wealth 
of empirically derived neuroscience to our public.
    However, with concerted teamwork from all sectors of our 
society, I am confident that we can meet the challenge of 
controlling the abuse of methamphetamine and reducing the 
suffering of those who struggle with addiction. Thank you.
    [The prepared statement of Dr. Napier follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bucshon. Thank you all for your testimony.
    I remind the Members of the Committee rules limit 
questioning to five minutes, and the Chair at this point will 
open the round of questions. I recognize myself for five 
minutes.
    Dr. Maxwell, from an epidemiological viewpoint--urban 
versus rural communities, is there a difference in 
methamphetamine--because I am in a relatively rural area of 
Indiana--versus Chicago, for example?
    Dr. Maxwell. The difference is that treatment resources 
aren't available in the rural areas. I don't see any difference 
in the patterns of urban versus rural but serious need for 
treatment facilities in the rural areas.
    Chairman Bucshon. Sergeant Crawford, in Indiana, do you 
notice a difference?
    Sgt. Crawford. We saw a big difference back in the late 
1990s and early 2000s when meth labs really started to grow. 
The vast majority of them were in rural areas. But now, with 
the one-pot or the shake-and-bake labs coming in, we are 
getting more and more labs in urban areas. I think within 
Indiana, Allen County and even Vanderburgh County, while it has 
got some rural areas, it is second- or third-largest city, so 
if you look at those two counties and the growth that they have 
seen, that kind of shows you that with the one-pot labs, it is 
much easier to cook in an urban area.
    Chairman Bucshon. You were commenting on how it wasn't 
necessarily economically driven; it was addiction-driven. Dr. 
Napier, maybe you can comment on this? I have heard that in 
certain respects, you know, as methamphetamine tries to 
overtake cocaine, for example, or other drugs that are being 
sold by certain groups of individuals in urban areas, that in 
areas where there is a strong dealer in cocaine, and that is 
where the money is, that methamphetamine has a hard time 
breaking into that area. Is that true or not true? Is that 
perception? Dr. Maxwell and then Dr. Napier?
    Dr. Maxwell. No, cocaine is down. There is a shortage of 
cocaine because a lot of it is going to Europe now. And I am 
hearing more and more people who are shifting to 
methamphetamine because cocaine--what we are--the cocaine that 
we are getting is not very pure. It is not worth ``paying 
for.'' No, they are going to methamphetamine now. Meth has far 
out-passed in most of the states cocaine in terms of 
prevalence.
    Chairman Bucshon. Dr. Napier, in Chicago?
    Dr. Napier. By understanding what is happening in Chicago 
is two things. One is it is still a very rural problem. 
Southern Illinois, as Mr. Lipinski knows, has some clandestine 
labs that are really supplying the problem there. In Chicago 
there are certain subpopulations of people that abuse 
methamphetamine more than others. For example, men who have sex 
with men or the gay men community are one of the higher users 
of methamphetamine in the City of Chicago. In the south side of 
Chicago and the west side of Chicago, cocaine is still the 
preferred drug. But we are--I predict that we will be seeing 
more methamphetamine infiltrating the city as it becomes more 
readily available.
    Chairman Bucshon. Dr. London, in the area of research--and 
I know you do research on the effects of it, I have discussed 
with FDA about trying to find ways to make pseudoephedrine not 
usable to produce meth. Are you aware of universities and other 
people--other in industry that are doing that type of work?
    Dr. London. I am not aware of that.
    Chairman Bucshon. Yes, and I think, Sergeant Crawford, you 
mentioned some of that, that tamper resistance and things like 
that, it is a very interesting subject because pseudoephedrine 
in and of itself isn't going to be a Schedule I drug because it 
is just not a Schedule I drug. So attacking it from the FDA 
standpoint and trying to schedule one drug based on the fact 
that it is used to produce another drug is not something that 
can be done at this point because of legal and other 
challenges.
    So I am interested in the science of trying--of not only 
finding ways to treat people that are on it but trying to make 
it more preventable to make it in rural areas like in Indiana. 
I recognize the fact that a lot of this is going to come from 
Mexico and that is a different problem to attack. So we really 
have two separate problems here, I think as it relates to that.
    And with that, I will yield to Mr. Lipinski.
    Mr. Lipinski. Thank you. I want to thank all the witnesses 
for their testimony. This is fascinating to hear this and very 
troubling in many ways.
    I want to start out with Sergeant Crawford. As I mentioned 
in my opening statement, the Methamphetamine Remediation 
Research Act passed through this committee in 2007. I was a 
cosponsor. I believe it was spearheaded by the then-Chairman of 
the committee Bart Gordon from Tennessee. In that bill, which 
became law, it established a research program on residue from 
methamphetamine production and developed voluntary guidelines 
for preliminary site assessment and remediation of meth labs. 
You know, at that time most meth was--that was cooked was 
cooked in drug houses. As you spoke about and others, you know, 
the new shake-and-bake method of cooking, seizures aren't 
restricted to collecting items in drug houses.
    So if this committee were to revisit the law that I 
mentioned, we would need to take this into consideration. Is 
there anything you could say about the new kinds of immediate 
or long-term risks, if any, that are faced by law enforcement 
officials and surrounding communities giving the--given the 
prevalence of the new method?
    Sgt. Crawford. I think the biggest issue that we are having 
is really in terms of the dangers associated with the one-pot 
labs. When we first started to see them, we didn't really 
understand. We knew--we understood the chemistry but we didn't 
understand the long-term effects, and we didn't realize what an 
enormous amount of ammonia gas that the one-pot labs actually 
create. And so when you look at injuries, especially to law 
enforcement, that is our issue that we are dealing with right 
now is the exposure to the ammonia gas that comes off of the 
one-pots because it creates its own ammonia gas within the 
reaction vessel itself.
    So in terms of the contamination that we are dealing with 
with these labs, whether it is a one-pot lab or other, is 
typically going to be your ammonia gas. But the bigger issue is 
in the last step of the process when they salt out or they 
solidify the meth and they introduce hydrochloric acid gas to 
the reaction vessel, those molecules bond with one another, and 
because it is a gas, it escapes into the air. And that is 
typically the types of exposures that we are dealing with, both 
long-term exposures from facilities or homes or cars or 
whatever it is that have had cooks happen in them, especially 
long-term. Automobiles are a little bit less because you can 
roll the windows down. They are smaller. They are not going to 
hold in the contamination as much as others, such as a house or 
a hotel room would.
    Mr. Lipinski. Thank you.
    Dr. Napier, I wanted to ask you, you had talked about these 
new programs for--educational programs. Is there anything more 
that you would like to see us doing here in Washington that 
would help to--help the research that would feed into these 
programs or in the helping to disseminate the findings of 
research and get those--get this out to people?
    Dr. Napier. There is always room to grow and help needed. 
From my perspective in working with these outstanding 
educators, one of the things that we really are trying to do is 
to determine if--outcomes. Are we really making a difference 
with our new curriculum? So we have several schools that have 
served as beta test sites in the Chicago metropolitan area, and 
we are just now getting feedback from our first year of 
implementing this curriculum in different schools.
    What we need to be able to do is to customize this 
curriculum to the individual community schools and then 
determine if we are as effective in the different environments, 
because clearly, the way we are going to reach children, for 
example, in rural areas is going to be quite different than 
what we are going to be needing to use in the suburban parts of 
Chicago.
    So this kind of epidemiology and this kind of validation of 
outcome-support takes money. We have to hire people to do this; 
we have to have researchers employed. And so this again is an 
area where grant support mechanisms could be very critical in 
driving the momentum to get this thing to the schools as quick 
as we can.
    Mr. Lipinski. And is the--what about the funding for the 
research that is going on to learn more and to improve these 
educational programs? Is there--I know there is always a need 
for--you could say for more but is there anything that is 
missing, anything that can be done differently?
    Dr. Napier. Well, there are mechanisms for this kind of 
educational directives if you will through both the NIH and at 
NIDA, as well as NSF. And I think that what we need to do is to 
take those vehicles and optimize them. One idea that we might 
explore actually, as you know, all of these programs have 
training grants, so we are putting young people in their Ph.D. 
programs on training grants that are being supported by NIH.
    One of the things we might consider to do is that there 
would be a component required of these training grants to have 
these students volunteer, and this could be part and parcel to 
their training and part and parcel to the institutions getting 
the grant awarded. And I think that kind of infusion of these 
are young men and women who are going into the neurosciences 
who are right out of college, and having them work in these 
different high schools and junior highs would be a huge 
infusion of great knowledge and understanding that would be 
very useful in these kinds of programs. So that is something 
that might not cost so much money that might be very effectual.
    Mr. Lipinski. All right. Thank you.
    Chairman Bucshon. I now recognize Mr. Schweikert for his 
questioning.
    Mr. Schweikert. Thank you, Mr. Chairman.
    Professor London--and forgive me, some of my knowledge on 
this is a bit outdated, but walk me through methamphetamine and 
its attachment to the receptors. Is it different than other 
opiates in both the dopamine receptors and other parts in the 
brain?
    Dr. London. Methamphetamine interacts with the dopamine 
transporter.
    Mr. Schweikert. Um-hum.
    Dr. London. It is taken up into neurons that use dopamine 
as a neurotransmitter. It gets into the vesicle where dopamine 
is stored, and reverses the activity of the transporter so that 
lots of dopamine is released into the synapse, and these very 
high concentrations that are released--much, much more than a 
release from the administration of cocaine--are toxic because 
dopamine itself in a high concentration will autooxidize.
    Mr. Schweikert. Almost to that, wasn't there--and wasn't it 
even happening at a couple of the big southern California 
universities a couple years ago looking at abilities to almost 
block those receptors from absorption? Do you have any memory 
of what happened or where that research is?
    Dr. London. Yes. At this point with respect to interacting 
with the dopamine transporter, one of the best clues that we 
have for therapy is with bupropion, which has----
    Mr. Schweikert. Okay.
    Dr. London. --as part of its action, the ability to enhance 
dopamine function by blocking the transporter. It is in a sense 
a type of agonist or mimic for the drugs of abuse but without 
the abuse potential.
    Mr. Schweikert. Okay. So if I remember my little friend who 
is trying to explain this to me--she actually sort of drew with 
crayons so I would understand it; it is always amazing how, you 
know, two times in life you think you know everything: when you 
are 14 and when you become a Member of Congress--is it an 
actual block on the receptor or is it changing the--as you call 
it, the transporter?
    Dr. London. Methamphetamine interacts with the presynaptic 
element of the neurons. All of the transmission takes place at 
the gap in between neurons----
    Mr. Schweikert. Um-hum.
    Dr. London. --which is called the synapse.
    Mr. Schweikert. Yes.
    Dr. London. And methamphetamine acts at the first neuron in 
the sequence causing massive releases of dopamine. This massive 
release of dopamine really destroys the system over time in 
that the dopamine receptors that are needed for dopamine to 
have its normal activity are down-regulated, and in fact the 
presynaptic element doesn't function very well in terms of 
releasing dopamine in response to natural rewards.
    Mr. Schweikert. Okay. The impossible-to-answer question--
where do you think we are in the research of being able to have 
a pharmaceutical sort of solution to at least either blocking 
those receptors and would it only be meth specific or would it 
be other types of opiates?
    Dr. London. Well, meth is not an opiate. It is an 
amphetamine, and so it has a different chemical structure. And 
the opiates interact directly with other kinds of receptors.
    With respect to a treatment that will help all 
methamphetamine abusers globally I think we are not in good 
shape. But we do have treatments that help subgroups of 
methamphetamine users. For example, bupropion is effective in 
reducing stimulant use by individuals who use methamphetamine 
on fewer than 18 days a month, but not in the heavy users. 
There is also a positive signal with bupropion being effective 
in men who have sex with men.
    There are clues from the recent PET literature and animal 
studies that there are other targets that haven't been used as 
therapeutic targets that might be useful.
    Mr. Schweikert. Okay.
    Dr. London. One of them is the D3 receptor, which seems to 
be up-regulated in meth users, and blocking it in animals 
reduces methamphetamine self-administration.
    Mr. Schweikert. All right. Thank you. And I know we are 
very short on time.
    Dr. Maxwell, wonderful data you have put together. My quick 
question is let's say we had great success in strangling the 
supply of methamphetamine. When you have been looking at data 
particularly in the Texas environment, are there any other 
drugs that you see potentially in the upswing either because of 
their price or their potency?
    Dr. Maxwell. Okay. Two different things: DEA is telling me 
that the cause of the pseudoephedrine is not--we can't get 
enough of it to collect and the problems with the P2P if Mexico 
bans it. We know people are out all over the world in Africa 
and South America looking for other chemicals that can be used 
to make meth. And in terms of other drugs going up, 
methamphetamine continues to go up. I am worried about heroin 
among young users and the synthetic drugs, we are just 
beginning to understand what is going on with them. And a lot 
of them are actually related to methamphetamine. We like 
uppers. We like trippy uppers that you can--it is kind of like 
combining LSD and, you know----
    Mr. Schweikert. See, I have always assumed----
    Dr. Maxwell. Yes.
    Mr. Schweikert. --that is why the dear Lord created coffee 
for me.
    Dr. Maxwell. Exactly.
    Mr. Schweikert. Mr. Chairman, I yield back. Thank you for 
your patience.
    Chairman Bucshon. You are welcome.
    Dr. Bera.
    Mr. Bera. Thank you, Mr. Chairman and Ranking Member 
Lipinski, and thank the witnesses.
    I am a physician by training and I represent Sacramento 
County in the northern California area where we have got a huge 
methamphetamine challenge. The Sacramento Bee reported that 40 
percent of the men arrested in Sacramento County have meth in 
their system. And just as we think we are making some progress, 
as Dr. Maxwell showed, those that are supplying are staying one 
step ahead of us here.
    Increasingly, more of the meth that does seem to be coming 
from Mexico does seem to be being smuggled in as liquid as 
well. And then I think Sergeant Crawford has talked about the 
ease of the shake-and-bake production. So if we focus on the 
back end, it looks like it is going to be a very difficult 
challenge for us to get a handle on.
    On top of that, when I look at our law enforcement at one 
time most of our law enforcement agents had narcotics units. 
Now, a lot of our police departments have lost narcotic units. 
In Sacramento, the Sacramento PD shuttered their narcotics unit 
in 2011. So that also adds to the challenge here.
    You know, we have seen the ability to provide treatment go 
down. In California in 2006 we had 78,000 patients admitted to 
meth addiction programs. Less than five years later, it is less 
than 44,000.
    So I am not painting a rosy scenario here. This is a 
challenge. And then concomitant to that, you know, I was chief 
medical officer for Sacramento County. The number of folks that 
have dual diagnosis--mental illness and substance abuse--the 
number of folks that, you know, by not addressing the root-
cause issues, we end up building more jails. We end up having 
to build these backend solutions.
    The challenge that drug addiction--not just methamphetamine 
but cocaine--we are now seeing a huge uptick in prescription 
drug abuse and the impact that has on the family social 
structure, the impact it has on the foster care system, et 
cetera. So there are these huge sociological challenges. I 
haven't asked a question yet because these are real issues.
    We have talked a lot about backend solutions, but if we 
were to look at the root-cause issues and try to shift towards 
prevention in some of the social science that it potentially 
leads to drug abuse and addiction, I guess I would ask Dr. 
Maxwell where would you like us to focus if we were to try to 
focus on frontend solutions and root-cause solutions?
    Dr. Maxwell. Thank you. We have tried a number of different 
approaches on--to prevent youngsters from using drugs. There 
have been some that have been proved to be quite effective, but 
it seems like we start doing something and then we drop it.
    Mr. Bera. Right.
    Dr. Maxwell. I really wish we would go back to some of 
those prevention programs that have, through the follow-up 
tests, been shown to be effective.
    Mr. Bera. Because it is probably making a commitment over a 
generation, right? I mean if----
    Dr. Maxwell. Exactly.
    Mr. Bera. So----
    Dr. Maxwell. Um-hum.
    Mr. Bera. --what would you say some of those programs are 
that you would like to see?
    Dr. Maxwell. They are up on the SAMHSA website and I can 
give your staff the links to it, but some very, very good ones. 
So before we start over again, I think it is time to go back 
and look at which of those are the most effective and could we 
modify them to handle these new drugs?
    Mr. Bera. Dr. Napier?
    Dr. Napier. And to continue that dialogue, there is a 
couple things. One is we have to understand that the 
curriculums are regulated by criteria that have to be met, and 
so first to come in with a new curriculum adds a huge burden on 
our already-burdened teaching system, so we have to be very 
sensitive to that.
    So what I think is a good approach is a more integrated 
approach and it needs to be over the course of the students' 
experience in junior high and high school. It can't be you have 
a speaker come in and you give a talk in the auditorium and 
leave. It needs to be integrated into health sciences, P.E., 
social sciences, and be science-driven. And I think that is 
where we have a lot more that we can do to make this better to 
where good decision-making is part and parcel to drug 
prevention.
    And we all know that the adolescent brain is a different 
brain than the adult brain, and the capacity to make decisions 
is not the same. And we all know that the frontal cortex is not 
developed in children until they are 21 or 23. And so we need 
to have empirically based curriculum that will reach the 
adolescent in terms of these decision-making processes based on 
their neurobiology.
    Mr. Bera. What would you say the right age for intervention 
is if we were to--elementary school?
    Dr. Napier. Elementary school.
    Mr. Bera. Yes. Okay.
    Dr. Napier. Absolutely. And also I think it is important to 
think about in urban situations where students drop out of 
school, you want to reach those children before the dropout 
rate start to escalate. So again, that means starting them 
sooner.
    Mr. Bera. I am out of time but I don't know if Sergeant 
Crawford or Dr. London----
    Chairman Bucshon. We are going to do another round of 
questioning if you have more questions if you can stay.
    Mr. Bera. Okay. Fabulous, thank you.
    Chairman Bucshon. Yes. And so we are going to do a second 
round for those who can stay.
    For whatever it is worth, I have four kids aged 20 to age 
9, and Dr. Napier, maybe you can comment on this, but even 
though us as parents think we are the ones that have the most 
influence over the direction that our children take, in actual 
fact, their peer group has probably more overall effect on what 
they do every day than we do. And so I found it interesting 
when you are talking about having volunteer children or high 
school kids who, rather than having the county sheriff come out 
and talk about the Just Say No program and things like that, 
which also needs to be done, is working on designing programs 
that actually get people of the same age that are willing to 
interact at a peer-group level, to try to affect that. Do you 
think this something that would be effective?
    Dr. Napier. Well, I think there are a couple points here 
that you made that are really important to bring home. Number 
one is the influence of peers. Now, we all know even in basic 
research, which is what I do, that people, places, and things 
influence the way an animal--in my case, the rat--will make 
decisions about taking drugs and the cues associated or the 
things that are associated with the drug-taking has a huge 
influence on subsequent drug-taking. Now, you superimpose that 
on the brain of an adolescent, which is wired to be more 
sensitive to these environments and to their friends. That is 
the way their brain is made, and then they have hormones.
    So all of these factors sort of escalate into this thing we 
call a teenager that greatly influences how they are making 
choices and who is going to inform them about the kind of 
choices they make. So that is why I do agree that getting 
younger people that may relate to the students in a more--level 
that they can sort of gear into is something that we could 
exploit more.
    But I don't want it necessarily to be teenagers. My 
suggestion had to do--these would be graduate students and 
medical students, so they are in their mid-20s that would be 
able to come back to junior high and high schools, and they 
would have a science-based knowledge that then could be 
incorporated into whatever curriculum is being implemented by 
that particular school.
    Chairman Bucshon. I think that is just a fascinating 
subject because, like I said, have four kids, and like 
cigarette smoking, for example, there are studies on why almost 
every teenager at some point tries cigarettes but only a 
certain percentage of them actually become chronic smokers. And 
the reason they originally try it is because of peer pressure 
and peer group influence. Even in contrast to the factual data 
that shows that cigarette smoking in the long run is bad for 
your health, most people are not influenced by that when they 
try it. But why some people will become chronic cigarette 
smokers and others don't is fascinating.
    And that in meth, my understanding is you don't have a 
second chance a lot of times. I mean once people start to get 
on meth with the changes Dr. London has described, you may have 
a higher percentage of chronic users of methamphetamine versus 
cigarettes, for example, and that is why peer group stuff, I 
think, may be important.
    Dr. London, once these changes happen, are these permanent? 
I mean are these reversible?
    Dr. London. There have been studies with positron emission 
tomography on both the metabolic pattern in the brain, glucose 
metabolism, and also some of the dopamine receptor markers and 
structural markers. And in fact what we found is that decrease 
in the volume of the striatum, which is a part of the brain 
that is very important in reward and motor function, does 
recover to some extent. And there can be recovery in as early 
as a month of abstinence.
    With respect to some of the chemical markers, it takes a 
very, very long time to reach recovery and it--at two and a 
half years after cessation of chronic methamphetamine use, one 
area of the brain that is affected, the thalamus, shows 
complete recovery where another area of the brain, the 
striatum, does not show complete recovery.
    So it is a very long drawn-out process, and it can be very 
frustrating for the addict who is approaching a treatment 
episode because what happens is that these people, as a result 
of the structural and biochemical changes that are very long-
term, are very frustrated when they are in treatment because 
the treatments are behavioral treatments, where they have to 
exercise some kind of self-control in thought-stopping, and 
they are really not very able.
    So I think educating the client in addition to ultimately 
developing some medications that can help the cognitive therapy 
along would be useful.
    Chairman Bucshon. Yes, it seems to me from what you just 
said is that there will have be medication in addition to other 
therapy if we are going to fix this for people who are 
chronically addicted to methamphetamine. And so that is why 
ongoing research is so critical to try to solve this problem.
    We will go to Mrs. Lummis for her questions.
    Mrs. Lummis. Thank you, Mr. Chairman.
    I sure appreciate the panel's attendance today, your 
knowledge, your information.
    As you have testified, there was a wave of addiction going 
from the West Coast to the East Coast. It swept across my state 
of Wyoming into the Midwest leaving almost a lost generation 
where children of addicts are being raised by their 
grandparents. People in their 30s and early 40s are struggling 
with addiction. It was staggering and has affected every 
family, including my own. So the work you are doing is just 
critical to helping the recovery of this literal generation 
that was lost to this addiction that are now adults, young 
adults.
    Dr. London, I believe it was you that mentioned that the 
striatum does not recover after two and a half years whereas 
the thalamus does. Can you tell me what the striatum does?
    Dr. London. Yes, the striatum has multiple functions. On 
the most superficial level we think about the striatum as being 
important in motor control. The striatum is the area--one of 
the areas that receives a very, very rich enervation of 
dopamine neurons from the mid-brain, and it is those neurons 
that degenerate in the pathology of Parkinson's disease.
    Mrs. Lummis. Oh.
    Dr. London. The striatum has other functions as well, and 
dopamine signaling in the striatum is very important for 
decision-making. We have recently published a report showing 
that there is a very, very strong relationship between dopamine 
receptors in the striatum and the function of the prefrontal 
cortex when a person is deciding to take risk or not take risk. 
And so what you see with the damage to the dopamine system in 
the striatum is a situation in which the addict really has a 
difficult time making the right decision to go to sobriety. It 
is as if the drug--the effects of drug-taking reinforce the 
addiction.
    Mrs. Lummis. So given that physiological understanding, is 
there some research that is being undertaken that can affect 
the dopamine receptors' ability to recover?
    Dr. London. We have some very exciting findings that are 
preliminary--strong but preliminary. What we have known is that 
even though the dopamine receptors show down-regulation in 
methamphetamine dependence, treatments that are aimed directly 
at the dopamine receptors, agonist drugs that would make the 
receptors work, don't really work very well for methamphetamine 
dependence.
    Mrs. Lummis. Okay.
    Dr. London. Maybe that is because the receptors are down-
regulated so much or the ones that remain are not functional. 
And what you really need are fresh dopamine receptors. Using a 
different approach, we have an ongoing study where exercise, 
moderate exercise in a very controlled study, has shown a very 
remarkable up-regulation of the dopamine receptors in--over the 
course of eight weeks. And this is very exciting and this might 
make that system more amenable to all kinds of therapy, be it 
cognitive, behavioral, or pharmacological.
    Mrs. Lummis. Thank you, Dr. London.
    Would anybody else in the last half-minute I have care to 
weigh in on the dialogue that I have been having with Dr. 
London?
    Well, I am deeply grateful for your testimony here today, 
your work on this subject. It is enormously important to my 
state of Wyoming and to that wave of young people now in their 
30s and 40s that were tremendously affected.
    And I would just add that on the Indian reservations in 
Wyoming and elsewhere, the Mexican drug cartels chose to set up 
base camps, and between the grinding poverty on reservations 
and what may be some genetic component to the addiction, they 
have been tremendously devastating to our Native American 
population as well. So the work you are doing is just 
tremendously critical and I thank you very much.
    And Mr. Chairman, I thank you and yield back.
    Chairman Bucshon. Since I missed that you came in during 
the first round, we have done a second round of questioning, so 
if you have other questions, I think it would be appropriate to 
allow you another five minutes for a second line if you have 
any other questions.
    Mrs. Lummis. Well, Mr. Chairman, I would just use my time 
to ask the members of the panel, is there information that you 
would like to share with us that you haven't been able to 
convey yet in your testimony? I want to give you a very open 
opportunity to make some points that previously have not been 
made that you don't want to leave this room without making.
    Dr. Napier. I can weigh in first here. I think this is an 
incredibly complex scenario and we are not going to find a 
resolution probably in my lifetime. But I do think what is 
really, really important is to consider this both on the supply 
and the demand side and both in terms of prevention and then 
adequate treatment, but to understand that treatment may have 
to do--have--will have to be highly individualized, because 
depending on if we catch someone early in their use and 
exploration of methamphetamine versus someone who has used it 
for a protracted period of time, that is a different brain 
state. That is a different individual.
    If we catch them during early withdrawal periods versus 
someone like Dr. London was talking about two and a half years 
out when they are even motivated to quit using the drug and 
they are fighting against their own brain biology that is 
influencing their decision-making processes, it is tapping into 
the brain that actually--those brain regions that make 
decisions that succumb to methamphetamine. So it is a double 
whammy. And I think we have to have an appreciation for that.
    And I think that is why this multidisciplinary, highly 
integrative approach that is going to start young--and 
understand that we have got baby boomers now that are moving 
into retirement and they are going to be having drug abuse 
issues that we are going to have to deal with as a society as 
well.
    So I do believe it is going to take a multidisciplinary 
across institutes, across states and an education end and a 
treatment end for us to really make a dent in this problem.
    Mrs. Lummis. Dr. London?
    Dr. London. We haven't said much about the need for an 
integrated approach in pushing the technology with respect to 
this problem. And I think we are--especially with respect to 
the interest of this particular Subcommittee, science, 
technology, and mathematics can really be put into the arena to 
move the field forward.
    Particularly, we could talk about the combination of 
nanotechnology with cutting-edge neuroscience methods. That 
combination could be very powerful with nanotechnology giving 
you dynamic chemical measurements in very, very discrete areas 
of the brain. Already there is cutting-edge 
electrophysiological recording that is being combined in 
animals with electrochemical detection of glutamate, dopamine, 
and other neurotransmitters that can give us a moment-to-moment 
readout of how neurotransmitter signaling can modulate 
coordinated neural activity.
    And so I think that we need to keep in mind that we really 
need better tools, and some of these tools could be within our 
imaging area. We need to have better radio tracers that will 
selectively allow us to evaluate chemical changes in the brain.
    Mrs. Lummis. May I interrupt you there?
    Dr. London. Of course.
    Mrs. Lummis. Where is this research being done now and with 
regard to, for example, nanotechnology, radio transmitters? Is 
it being done? Where? And is Congress helping fund that?
    Dr. London. There is a California Nanotechnology Institute 
that is located at UCLA, and I believe it really was an 
initiative that has been helped by Congress, although I am not 
sure of the specifics there.
    What we also really need are education programs for the 
specialist. For example, there is a dearth of radiochemists in 
the world, and it is a specialty that is really required to 
give us those molecules that would allow us to do these 
noninvasive measurements.
    Mrs. Lummis. Where are they trained? Who trains 
radiochemists?
    Dr. London. There is a program at Johns Hopkins, there is a 
program at the University of Michigan, the Karolinska 
Institute, the National Institutes of Health Intramural 
programs.
    Mrs. Lummis. Thank you. And I want to thank all of you for 
your testimony.
    Chairman Bucshon. I am going to allow the other two that 
didn't get a chance to give their final comments some time to 
follow up with what Mrs. Lummis asked to just comment on what 
you might want to say to the Committee that you didn't get a 
chance in your testimony starting with Sergeant Crawford.
    Sgt. Crawford. At first when I saw the list of folks that 
were going to be here to testify, it was kind of one of those 
situations where I am really glad I slept at a Holiday Inn 
Express last night because doctor, doctor, doctor, sergeant.
    But I will say one of the things that law enforcement, not 
only within our state but across the country, we're very 
cognizant that prevention programs are important. And having 
come from a background within the State Police where I worked 
in our problem-oriented policing section, which focused on 
community problems and what do we do to help solve those 
problems from our aspect, I think it is important that we 
have--you have heard interdisciplinary all morning this 
morning, and I think that is such an important thing that it is 
so important to get the medical community, the treatment 
community, the prevention community, and law enforcement 
together so that we can come in from an interdisciplinary.
    Because I am pretty good at coming into your junior high 
class, the drug and alcohol or the health class and I can give 
them a good one-day program, but if we don't have something 
leading up to that and we don't have something after that to 
focus their attention, then I think it is not a waste of an 
hour but it is not as productive as it could be.
    And so from our perspective, while we are big into the 
enforcement side obviously and do our job to enforce the laws 
that are on the books, we do also focus on--within our section 
our mission statement is about education, prevention, and 
enforcement. And we keep them in that order because we know 
with education and--I am sorry, education, partnerships, and 
enforcement. With the education and partnerships that we create 
in the communities that we work, our enforcement efforts are 
going to be so much better.
    So the Meth Watch kits, even though we didn't get the 
turnaround necessarily from the meth cooks we did, we got great 
relationships that we built within the communities that offer 
us very good information about what is going on and where to 
focus our enforcement efforts. So I think those--the 
interdisciplinary is very important.
    Chairman Bucshon. Dr. Maxwell?
    Dr. Maxwell. Thank you. In listening to the testimony and 
in preparing my presentation, I think one of the things that is 
very, very important is we have a lot of data out there but it 
is accessing it and thinking about it and do things change as 
we do bring research? What does that mean for the user 
population or the statistics on what sources--are they shifting 
from methamphetamine to something else?
    It is always looking at little pieces of data, but when I 
start pulling it together and I think particularly with the 
Committee's support for going much further in dealing with 
methamphetamine, we ought to be able to sit down and say we 
have made progress here, we are not making progress there.
    One of the problems that we have now is that after the 
pseudoephedrine limitations started, everybody declared we had 
won the war and gone home and we don't need any more 
specialized methamphetamine treatment. They weren't looking at 
the data. So I am a data nerd but I think it tells us often 
where we need to go and where we have missed the ball.
    Chairman Bucshon. Well, I would like to thank all the 
witnesses again for their testimony. This is been a fascinating 
hearing. And I think from my perspective I do think from a 
research perspective it is very important that we continue to 
make sure we have Federal support for basic research in all of 
these areas, as well as other--through National Science 
Foundation, which is under the purview of this Subcommittee and 
other agencies such as the NIH.
    I also think it is important probably to have a national 
strategy on this type of work because in Indiana if you put 
laws in place for one thing, and the states around you don't, 
or if the States around you put a law in and you don't, it just 
gets transferred across the state, especially in Evansville 
where we have Illinois, Kentucky, and Indiana. So I do think it 
is appropriate to discuss the national strategy and attack this 
particular issue in my opinion.
    With that, that ends the hearing and the hearing is 
adjourned.
    [Whereupon, at 11:33 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

Responses by Dr. Edythe London

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Jane Maxwell

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Celeste Napier

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
